  DEPARTMENT OF HOMELAND SECURITY


    Ofﬁce of Inspector General
     Audit of the Automated Commercial
      Environment Secure Data Portal:
      Management Controls Needed
                Improvement
	




          Ofﬁce of Audits
OIG-04-35            September 2004
                                                                      Ofﬁce of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Ofﬁce of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG as part of its DHS oversight responsibility to identify and prevent fraud,
waste, abuse, and mismanagement.

This report assesses the strengths and weaknesses of the program or operation under review. It
is based on interviews with employees and ofﬁcials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein, if any, have been developed to the best knowledge available to the
OIG, and have been discussed in draft with those responsible for implementation. It is my hope
that this report will result in more effective, efﬁcient, and economical operations. I express my
appreciation to all of those who contributed to the preparation of this report.




                                              Clark Kent Ervin
                                              Inspector General
                                                                                                                         Contents
	

  Abbreviations...................................................................................................................................2
	

  Introduction......................................................................................................................................3
	

  Results in Brief ................................................................................................................................4
	

  Background ......................................................................................................................................4
	

  Process For Gathering User Feedback.............................................................................................5
	

  Process to Monitor User Feedback ..................................................................................................6
	

  Other Matters ...................................................................................................................................7
	

Appendices
  Appendix 1:                 Purpose, Scope, and Methodology.....................................................................8

  Appendix 2:                 Recommendation ...............................................................................................9

  Appendix 3:                 Overview of ACE Releases..............................................................................10

  Appendix 4:                 Major Contributors To This Report .................................................................11

  Appendix 5:                 Report Distribution ..........................................................................................12




                                        Automated Commercial Environment Secure Data Portal                                                               1
Contents
	
Abbreviations

    ACE         Automated Commercial Environment
    AD          Anti-Dumping
    ATS         Automated Targeting System
    CBP         Customs and Border Protection
    CCIE        Cargo, Conveyance, Individual and Equipment
    CFO         Chief Financial Ofﬁcer
    CROSS       Customs Rulings Online Search System
    CVD         Countervailing Duty
    eCP         e-Customs Partnership
    EFT         Electronic Funds Transfer
    FCC         Federal Communications Commission
    FDA         Food and Drug Administration
    FMCSA       Federal Motor Carrier Safety Administration
    FOIA        Freedom of Information Act
    FTZ         Foreign Trade Zone
    HTS         Harmonized Tariff Schedule
    IASS        Importer Activity Summary Statement
    ITC         International Trade Commission
    MARAD       Maritime Administration
    NTC         National Targeting Center
    OIG         Ofﬁce of Inspector General
    PTR         Product Trouble Report
    TBD         To Be Determined




2                     Automated Commercial Environment Secure Data Portal
OIG
Department of Homeland Security
                                                                                             Audit
                                                                                             Report
Ofﬁce of Inspector General


Introduction
                              The Automated Commercial Environment (ACE) Secure Data Portal is a system
                              that will allow the private sector trade community to submit data that meets
                              all federal requirements for cargo entering and leaving the United States. The
                              development of ACE is a massive and multifaceted effort directly related to the
                              success of the Customs and Border Protection (CBP) mission. According to CBP,
                              ACE will enable CBP to:

                                   • 	 process and monitor import and export shipments and related trade activity
                                       more efﬁciently through trade accounts versus individual transactions;
                                   • 	 release cargo more efﬁciently by integrating international law
                                       enforcement intelligence, commercial intelligence; and data mining results
                                       to focus efforts on high-risk importers and accounts; and
                                   • 	 facilitate cargo processing by permitting the transfer of automated entry,
                                       entry summary, and manifest information in one standard data set for all
                                       modes of transportation.

                              The vision of ACE is to create a single portal1 for all Federal requirements for
                              international cargo. This will provide the trade community a single web-based
                              interface to make periodic payments, post transactions, and view statement
                              records by account. This will beneﬁt the federal government by creating a
                              common knowledge-based risk management system for joint enforcement
                              targeting and intelligence development.

                              The objective of the audit was to determine CBP was managing and developing
                              the ACE Secure Data Portal to meet user expectations in the areas of user
                              feedback and the change request process. The audit work was performed from
                              April to November 2003. This report and the two prior reports issued, taken
                              together, represent the results of the audit of the ACE Secure Data Portal.

                              Our ﬁrst report addressed a critical contract deliverable and technical reporting
                              issues. CBP concurred with our two recommendations relating to acceptance of
                              the foundational activities in the deliverable and improving technical reporting.
                              (Audit Report Number OIG-01-04, titled Audit of the Automated Commercial


1
    A “portal” is software that provides a controlled gateway to an internet site.



                                                                                                                  3
                   Environment Secure Data Web Portal: Quality of Deliverables Can Be Improved, 

                   dated November 25, 2003)

                   Our second report addressed security concerns and was issued for ofﬁcial
                   use only. (Audit Report Number OIG-04-22, titled Audit of the Automated
                   Commercial Environment Secure Data Web Portal: Information System Security
                   Requirements Need To Be Implemented, dated May 24, 2004)

Results in Brief
                   The process used by e-Customs Partnership (eCP) to gather user feedback was
                   adequate. During a 90-day pilot, eCP established a logical process to gather
                   user feedback. This process resulted in the initiation of Product Trouble Reports
                   (Trouble Reports) and change requests.

                   However, the CBP Modernization Ofﬁce was not tracking all the user feedback
                   collected by eCP. A monitoring process would allow the CBP Modernization
                   Ofﬁce to review, evaluate, monitor, and track user feedback to ensure that issues
                   important to CBP are properly addressed.

                   In addition, change request packages did not always have the required
                   documentation identifying how changes would impact the program. As a result,
                   the Change Control Board and Project Directors approved work requirement
                   changes without knowing the full impact of the changes to the program.

Background
                   CBP enforces the trade laws of the United States while also facilitating legitimate
                   trade and travel. In performing its mission, CBP counters the dual threats of
                   narcotics smuggling and terrorist inﬁltration. The ability of CBP to process
                   the growing volume of imports, while improving compliance with trade laws,
                   depends heavily on successfully improving the trade compliance process
                   and modernizing supporting automated systems. In August 2001, eCP, the
                   prime contractor for the development of ACE, started work. Currently, eCP is
                   scheduling the full deployment of ACE by December 2007 at an estimated cost of
                   $2.24 billion.

                   The ACE development coalition, eCP, is delivering ACE in a series of seven
                   releases. Each release provides added functionalities and capabilities. (See




4                         Automated Commercial Environment Secure Data Portal
                             Appendix 3 for an Overview of Ace Releases.) As of May 2004, eCP had
                             deployed Release 22, which established the initial infrastructure upon which all
                             subsequent ACE functionality would rest and provided access to CBP account
                             managers and 41 companies who import merchandise into the United States.
                             CBP accepted delivery of Release 2 in October 2003 and started testing the
                             system with CBP account managers and 41 companies to gather feedback of
                             system functionality. Release 3 will increase the number of trade accounts and
                             provide monthly statements and payments. Release 3 will also deliver the ACE
                             infrastructure through which internal and external users will access revenue,
                             sensitive law enforcement, and proprietary corporate information. Release
                             3, which allows importers and designated brokers to make periodic monthly
                             payments for monthly statements of duties and fees, is scheduled for deployment
                             in the summer of 2004.

Process For Gathering User Feedback
                             eCP established an adequate process to gather user feedback needed to help
                             initiate Trouble Reports and change requests during the Release 2 pilot
                             performance period. The feedback gathered by this process also provided
                             additional information to improve future releases of the ACE Secure Data Portal.

                             The ACE pilot performance period is a 90-day trial period where the system
                             operates in a production environment. The purpose of a pilot performance period
                             is to ensure that the release meets the business needs of the users. At the end of a
                             pilot, CBP decides whether to accept or reject the release.

                             User Acceptance Testing is a formal method of measuring user satisfaction that
                             was conducted during part of the pilot performance period. The purpose of
                             User Acceptance Testing was to test the ACE Secure Data Portal in a real world
                             business environment with real users interfacing with their actual data. Based on
                             its experience with User Acceptance Testing feedback from evaluating Release 1,
                             eCP engaged a specialist in the ﬁeld of system usability to develop, administer,
                             and evaluate metrics for User Acceptance Testing in Release 2. CBP and eCP
                             gathered user feedback through three different methods:

                                 • 	 The ACE Secure Data Portal has a function that enables users to transmit
                                     comments and problems to eCP online. Users provided feedback during
                                     the pilot performance period.

2
    CBP chose not to implement Release 1 due to problems with infrastructure, performance, and usability.



                                     Automated Commercial Environment Secure Data Portal                        5
                 • 	 eCP operated the ACE help desk throughout the pilot performance period.
                     The ACE help desk generated trouble ticket for problems, issues, and
                     suggestions or elevated issues to appropriate parties in eCP or CBP as calls
                     were received.
                 • 	 CBP and eCP had direct contact with users during User Acceptance
                     Testing via telephone calls, e-mails, surveys, and on-site visits. Users
                     provided feedback on speciﬁc problems or concerns.

              Comments made by the users, and considered material to eCP, resulted in a
              Trouble Reports, change requests, or were elevated to the appropriate party in eCP
              or CBP. eCP created Trouble Reports when it was determined that the comment
              represented the incorrect or incomplete implementation of a system requirement.
              Change requests were initiated for comments that represented a requirement
              for added system functionality. The Trouble Reports and the change requests
              were also used to track and address problems identiﬁed by users during the pilot
              performance period.

              eCP provided CBP with a report summarizing the User Acceptance Testing
              results, Trouble Report performance measurements, and help desk performance
              measurements. The report also described the methods used to gather ACE user
              feedback.

Process To Monitor User Feedback
              The CBP Modernization Ofﬁce was not monitoring user feedback gathered
              by eCP. The CBP Modernization Ofﬁce is responsible for monitoring eCP’s
              development of ACE. However, since this was the ﬁrst pilot performance period
              with external users, the CBP Modernization Ofﬁce did not have a formal tracking
              system to monitor the disposition of the detailed user feedback. A monitoring
              process is necessary to ensure that issues important to CBP are incorporated into
              ACE.

              We recommended a formal user feedback tracking system to the Workforce
              Transformation Director for the CBP Modernization Ofﬁce during the audit. As
              a result, on March 12, 2004, the Workforce Transformation Director included a
              process to monitor user feedback as a deliverable in Task Order 16. He provided
              the detailed requirements for tracking user feedback to the contractor in a Product
              Description Document that presented the proposed concept and content of the
              deliverable, titled “Process for Gathering and Disseminating Feedback.” This




6                    Automated Commercial Environment Secure Data Portal
                deliverable will be used to summarize the ﬁndings, analysis, conclusions, and
                recommendations of this activity.

                Recommendation 1

                We recommend that the CBP Modernization Ofﬁce Director develop and issue a
                formal system for tracking user feedback.

                OIG Comment

                The actions taken by CBP during the audit satisfy the intent of our
                recommendation.

Other Matters
                Change request packages that needed impact statements did not always address
                all of the critical areas required. This occurred because the packages were not
                adequately reviewed to ensure that all information necessary to make informed
                decisions was included. The Conﬁguration Management Team and Change
                Sponsors are responsible for including all of the required documentation in
                the packages. Further, change request procedures did not require including
                alternative solutions in the packages. As a result, this increased the risk of
                approving changes that may have a negative impact on the cost, schedule, and
                quality of the program.

                During the audit, we discussed this issue with CBP Modernization Ofﬁce
                management ofﬁcials. In response to our discussion, the Director of Program
                Control issued a memorandum on December 17, 2003, emphasizing the
                importance of ensuring that impact analyses include, as a minimum, sufﬁcient
                documentation on technical issues, stafﬁng, cost, schedule, system interfaces,
                security, and contract issues. This memo, issued to all change request initiators,
                sponsors, reviewers, and conﬁguration management personnel, also requires that
                any alternative solutions to the change be annotated on the change request.




                       Automated Commercial Environment Secure Data Portal                           7
Appendix A
Purpose, Scope, and Methodology




Purpose, Scope, and Methodology
                    The objective of this audit was to determine whether the CBP was properly
                    managing user feedback and the change control process to ensure that user
                    expectations for the ACE Secure Data Portal were being met. To accomplish this
                    objective, our audit work included:

                       • 	 Interviews conducted with various CBP and eCP ofﬁcials at CBP
                           Headquarters, as well as CBP and eCP facilities in Virginia.

                       • 	 Review of pertinent plans and documents related to the design,
                           development, deployment, cost, and schedule of the ACE Secure Data
                           Portal, including but not limited to:
                           • 	 Program Plans
                           • 	 Program Management Reviews
                           • 	 Requirement Speciﬁcation Set
                           • 	 Requirements Traceability Management System
                           • 	 Security Risk Assessment
                           • 	 Production and Operational Readiness Reviews
                           • 	 Release 1 and 2 Pilot Test Reports
                           • 	 Change request Process
                           • 	 User Acceptance Test Reports
                           • 	 Management Reserve Fund
                           • 	 MITRE Weekly and Monthly Reports

                       • 	 Review of change request documents to evaluate documentation support
                           and impact analysis statements.

                       • 	 Attendance at a September 2003 trade support meeting held in
                           Reston, Virginia, and at various recurring meetings held by the CBP
                           Modernization Ofﬁce, support contractors, and eCP relating to ACE
                           development.

                       • 	 Coordination of OIG audit work with the General Accountability Ofﬁce.

                    We conducted the audit from April 2003 through November 2003 according to
                    generally accepted government auditing standards and pursuant to the Inspector
                    General Act of 1978, as amended.




8                         Automated Commercial Environment Secure Data Portal
                                                            Appendix B
                                                            Recommendation



Recommendation 1

We recommend that the CBP Modernization Ofﬁce Director develop and issue a
formal system for tracking user feedback.




      Automated Commercial Environment Secure Data Portal                    9
Appendix C
Overview of ACE Releases




10                         Automated Commercial Environment Secure Data Portal
                                                  Appendix D
                                                  Major Contributors to This Report



George Tabb, Houston Field Ofﬁce Director
Gene Wendt, Audit Manager
Carlos Berrios, Auditor in Charge
David Porter, Auditor
Christy Staples, Auditor
Linda Howarton, Referencer




      Automated Commercial Environment Secure Data Portal                         11
Appendix E
Report Distribution



                      Department of Homeland Security

                      Deputy Secretary
                      Deputy Secretary Chief of Staff
                      General Counsel
                      Chief Information Ofﬁcer
                      DHS OIG Liaison

                      Customs and Border Protection

                      Commissioner
                      Customs and Boarder Protection Modernization Ofﬁce Director
                      Director, Evaluations and Oversight, Ofﬁce of Planning Director

                      Ofﬁce of Management and Budget

                      Homeland Bureau Chief
                      DHS OIG Budget Examiner


                      Congress

                      Congressional Oversight and Appropriation Committees, as appropriate




12                          Automated Commercial Environment Secure Data Portal
Additional Information and Copies

To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland, Washington, DC 20528,
Attn: Ofﬁce of Inspector General, Investigations Division – Hotline. The OIG seeks to
protect the identity of each writer and caller.
